IN THE SUPREME COURT OF THE UNITED STATES

BARRIENTOS-OSORIO, EZER ROSEMBEL
Petitioner
vs.

No:

20-6657

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
December 30, 2020
cc:
CHRISTOPHER A. CURTIS
ASSISTANT FEDERAL PUBLIC
DEFENDER
FEDERAL PUBLIC DEFENDERS
OFFICE
819 TAYLOR STREET
ROOM 9A 10
FORT WORTH, TX 76102

